        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Southwest Michigan Community
Action Agency – Weatherization
Assistance Program Funds Provided
by the American Recovery and
Reinvestment Act of 2009




OAS-RA-13-24                        June 2013
                                 Department of Energy
                                    Washington, DC 20585

                                         June 18, 2013



MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
                 AND RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Southwest Michigan
                         Community Action Agency − Weatherization Assistance Program
                         Funds Provided by the American Recovery and Reinvestment Act of
                         2009"

BACKGROUND

The attached report presents the results of an examination of the Southwest Michigan
Community Action Agency (Southwest) Weatherization Assistance Program (Weatherization
Program) under the American Recovery and Reinvestment Act of 2009 (Recovery Act). The
Office of Inspector General contracted with an independent certified public accounting firm,
Lani Eko & Company, CPAs, PLLC (Lani Eko), to express an opinion on the agency's
compliance with Federal and state laws, regulations and program guidelines applicable to the
Weatherization Program. Southwest is a sub-recipient of the Department of Energy's
(Department) Recovery Act Weatherization Program funding for the State of Michigan.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of Michigan received over $250
million in Weatherization Program Recovery Act grant funding, of which $6.69 million was
allocated to Southwest. The State of Michigan's Bureau of Community Action and Economic
Opportunity under the Department of Human Services was responsible for administering
Weatherization Program grants, including funds provided to Southwest.

RESULTS OF EXAMINATION

Lani Eko expressed the opinion that, except for the weaknesses described in its report, Southwest
complied in all material respects with the requirements and guidelines relative to the
Weatherization Program for the period April 1, 2009 to January 31, 2011.
                                                2


However, the examination found that Southwest had:

       • Inaccurately stated "Jobs Created and Retained" hours to the State Department of
         Human Services in its quarterly reporting under Section 1512 of the Recovery Act; and

       • Not provided evidence that findings noted by the inspector in the Final Inspection
         Report, such as eliminating heat loss through basement and garage air ducts, had been
         addressed.

The attached report makes recommendations to Southwest to improve the administration of its
Weatherization Program. Southwest provided responses that expressed agreement with the
recommendations and provided planned and ongoing actions to address the issues identified.
While these responses and planned corrective actions are responsive to our recommendations,
the Department needs to ensure the planned actions are taken.

RECOMMENDATION

We recommend the Assistant Secretary for Energy Efficiency and Renewable Energy:

   •    Ensure appropriate action is taken by the State of Michigan to improve Southwest's
        administration of its Recovery Act Weatherization Program funds.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendation outlined in this memorandum. The
Department credited the State's process improvements related to billing processes, eligibility
determinations, and trend analysis as well as the local weatherization agency's actions taken to
address recommendations. The Department reviewed these actions during its routine visit in
January 2013 and will continue to monitor these actions as part of its grant oversight
responsibilities.

Southwest reportedly implemented process improvements and corrective actions to address the
specific recommendations identified in our report. Lani Eko credited the local weatherization
agency for its actions, where appropriate.

EXAMINATION-LEVEL ATTESTATION

Lani Eko conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of Southwest's
policies and procedures and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was performed to test the appropriateness of payments.
                                                3


The Officer of Inspector General monitored the progress of the examination and reviewed the
report and related documentation. Our review disclosed no instances in which Lani Eko did not
comply, in all material respects, with the attestation requirements. Lani Eko is responsible for
the attached report dated April 17, 2012, and the conclusions expressed in the report.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Acting Chief of Staff
                                                      Attachment 1



 Report on Examination Level Attestation Engagement

                         Of

    Southwest Michigan Community Action Agency

Recovery Act Weatherization Assistance Program Funds



     Performed for the U.S. Department of Energy
             Office of Inspector General

                       Under

          Contract Number: DE-IG0000015
           Work Order Number: 2010-09



                         By



         Lani Eko & Company, CPAs, PLLC



                   April 17, 2012
                                                                                          Attachment 1 (continued)



                                            TABLE OF CONTENTS



INDEPENDENT ACCOUNTANT'S REPORT ..............................................................1


DESCRIPTION OF SOUTHWEST MICHIGAN COMMUNITY ACTION
AGENCY WEATHERIZATION ASSISTANCE PROGRAM .....................................2


CLASSIFICATION OF FINDINGS ................................................................................3


SUMMARY OF FINDINGS .............................................................................................4


SCHEDULE OF FINDINGS ............................................................................................5


MANAGEMENT RESPONSE .......................................................................................15
                                                                       Attachment 1 (continued)




                              Independent Accountant's Report

To the Inspector General, U.S. Department of Energy:

We have examined the Recovery Act Weatherization Assistance Program funds awarded by the
State of Michigan to the Southwest Michigan Community Action Agency for the period April 1,
2009 through January 31, 2011. The Southwest Michigan Community Action Agency is
responsible for operating the Weatherization Assistance Program in compliance with applicable
Federal and State laws, regulations, and program guidelines. Our responsibility is to express an
opinion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the U.S. Government Accountability
Office; and, accordingly, included examining, on a test basis, evidence supporting management's
compliance with relevant Weatherization Assistance Program Federal and State laws,
regulations, and program guidelines, and performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis for
our opinion.

Because of inherent limitations in any internal control structure or financial management system,
noncompliance due to error or fraud may occur and not be detected. Also, projections of any
evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Section IV of this report, the Southwest
Michigan Community Action Agency complied, in all material respects, with the aforementioned
requirements and guidelines relative to Weatherization Assistance Program funds awarded to the
Southwest Michigan Community Action Agency for the period April 1, 2009 through January
31, 2011.




April 17, 2012
Alexandria, Virginia




                                                                                            1
                                                                        Attachment 1 (continued)


         SECTION I. Description of Southwest Michigan Community Action Agency
                          Weatherization Assistance Program


The U.S. Department of Energy (Department) awarded $250,361,024 to the State of Michigan to
allocate among its network of 31 local governments and various nonprofit organizations
participating in the Weatherization Assistance Program (Weatherization Program). From this
award, $6,691,936 was allocated to Southwest Michigan Community Action Agency
(Southwest) to assist with the costs of weatherizing approximately 958 homes. In Michigan, the
Weatherization Program is administered by the State Department of Human Services (DHS).

Southwest partners with DHS to operate the Weatherization Program. In accordance with the
terms of this agreement, Southwest is responsible for determining applicant eligibility and taking
the necessary steps to weatherize the applicant's home. These steps include procurement of
contractor services, as well as conducting home assessments and inspections.

The Weatherization Program helps eligible low-income households lower their energy costs by
increasing energy efficiency. The primary focus is on the problems of heat loss and air
infiltration. Energy conservation and efficiency methods utilized by the Weatherization Program
include measures that reduce energy consumption and the cost of maintenance for weatherized
homes. In addition to the material improvements, energy conservation education is provided to
participants. For the period from April 1, 2009 through January 31, 2011, Southwest reported
that it had completed weatherization of 418 units under the Weatherization Program.




                                                                                             2
                                                                           Attachment 1 (continued)


                            SECTION II. Classification of Findings


The findings in this report are classified as follows:

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
adversely affects Southwest's ability to initiate, authorize, record, process, or report data reliably
in accordance with the applicable criteria or framework such that there is more than a remote
likelihood that a misstatement of the subject matter that is more than inconsequential will not be
prevented or detected.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect Southwest's ability to record, process, summarize, and
report data reliably. The advisory comments presented represent matters that came to our
attention during the course of the review and are offered to Southwest's management as an
opportunity for improvement. The advisory comments are provided along with suggestions and
discussion of the significance of the comments.




                                                                                                 3
                                                                     Attachment 1 (continued)


                           SECTION III. Summary of Findings


1. Reporting Under Recovery Act − Significant Deficiency

2. Billing for Work Performed Prior to Completion − Significant Deficiency

3. Davis-Bacon Act − Advisory Comment

4. Questioned Costs − Advisory Comment

5. Lead Safe Work Practices − Advisory Comment




                                                                                        4
                                                                         Attachment 1 (continued)
                              SECTION IV. Schedule of Findings


Finding 1. Reporting Under Recovery Act — Significant Deficiency


Condition

Southwest inaccurately stated "Jobs Created and Retained" hours to DHS in its quarterly
reporting under Section 1512 of the American Recovery and Reinvestment Act. Southwest did
not report any work hours for its existing positions funded by the American Recovery and
Reinvestment Act of 2009 (Recovery Act). Instead, Southwest reported hours only for new
positions created as a result of funding by the Recovery Act. Specifically, we noted that for the
quarter ending December 31, 2010, Southwest reported that Recovery Act employees worked
696 hours on Recovery Act projects. Per recorded timesheets for the same period, employees
reported having worked 2,456 hours on Recovery Act funded weatherization projects. This
difference is attributable to:

     1,740 unreported hours worked by those in existing positions (i.e. the program manager).

     19.8 understated hours worked by new Recovery Act employees.

Federal regulations require that accurate, current, and complete disclosure of the financial results
of financially assisted activities must be made in accordance with the financial reporting
requirements of the grant or sub-grant.

Specifically, in accordance with the Office of Management and Budget (OMB) Memorandum
M-10-08, Updated Guidance on the American Recovery and Reinvestment Act — Data Quality,
Non-Reporting Recipients, and Reporting of Job Estimates, recipients should report on all jobs
funded with Recovery Act dollars. Southwest corrected the error when we brought the matter to
management's attention.

Cause

The reporting errors can be attributed to the following:

       Southwest personnel were not aware of available DHS training on reporting
        requirements, and therefore, did not attend training provided by DHS.

       As a result of the lack of training indicated above, Southwest personnel misinterpreted
        the definition of "Jobs Created and Retained" relating to the Recovery Act reporting
        requirement.




                                                                                               5
                                                                        Attachment 1 (continued)
                          SECTION IV. Schedule of Findings (Cont.)


Effect

Southwest understated its Recovery Act Weatherization Program efforts. Further, DHS and the
U.S. Department of Energy, which relied on the Southwest data, passed on inaccurate data to
Congress concerning those efforts.


Recommendations

We recommend that Southwest:

1.1      Communicate regularly with DHS to ensure it is aware of all training being offered
         related to the Weatherization Program. If no such training is offered at the State level,
         then Southwest should develop its own training related to the Weatherization Program.

1.2      Work with DHS to take corrective action in amending the Jobs Created/Retained Report
         to include the unreported Recovery Act work hours.


Management Comments

Southwest has corrected the Jobs Created/Retained Report to include hours worked and paid
with American Recovery and Reinvestment Act (ARRA) weatherization funds. Southwest now
reports all hours worked under the ARRA program as reported on the timesheet.


Auditor Response

We acknowledge Southwest efforts toward implementation of corrective action.




                                                                                             6
                                                                        Attachment 1 (continued)
                         SECTION IV. Schedule of Findings (Cont.)


Finding 2. Billing for Work Performed Prior to Completion — Significant Deficiency


Condition

We determined that Southwest submitted a Statement of Expenditure Report that included a unit
that had not been fully inspected. More specifically, documentation for one of the 69 homes
tested did not contain evidence that findings noted by the inspector in the Final Inspection
Report, such as eliminating heat loss through basement and garage air ducts, had been addressed.
At the time of our visit, in April 2011, Southwest reported it had made numerous attempts to
contact the client in order to perform a final inspection. Subsequent to our audit in August 2011,
the agency was able to complete the final inspection.

Under its weatherization agreement with DHS and in accordance with Federal requirements,
Southwest is required to perform a final inspection of each dwelling unit before the job can be
reported to DHS as complete and eligible for reimbursement. The final inspection must be
signed and dated by the individual(s) trained and authorized to complete these inspections to
ensure that the weatherization services have been provided in a quality manner, consistent with
Federal requirements.

Cause

Southwest followed Michigan's guidance, rather than Federal regulations. Michigan's guidance
allows exceptions in cases where an agency is unable to contact a client.

Effect

As a result of the deficiency noted, there is an increased risk that Southwest was reimbursed
from Recovery Act funds for services not fully rendered.


Recommendation

We recommend that Southwest:

2.1      Seek guidance from DHS and the Department regarding actions to take when final
         inspections have not occurred and/or inspection findings cannot be resolved.




                                                                                             7
                                                                        Attachment 1 (continued)
                         SECTION IV. Schedule of Findings (Cont.)


Management Comments

Southwest made numerous attempts to reach the client and establish a time to complete the final
inspection of all work. Southwest finally accomplished the final inspection on 8/11/2011.
Southwest has also implemented additional steps to prevent a recurrence of this situation.


Auditor Response

Subsequent to our audit, Southwest was successful in contacting the client, conducting a final
inspection as required, and providing us with supporting documentation. We recognize
Southwest's efforts in pursuing this matter and working toward resolution.




                                                                                             8
                                                                      Attachment 1 (continued)
                        SECTION IV. Schedule of Findings (Cont.)


Finding 3. Davis-Bacon Act - Advisory Comment

Condition

Southwest failed to obtain weekly certified payroll reports from two of its 13 weatherization
contractors. In accordance with the Davis-Bacon Act, contractors must submit on a weekly basis
a copy of all payrolls providing specified information for the preceding weekly payroll period.
Each payroll submitted must be accompanied by a "Statement of Compliance" and signed by the
contractor's authorized payroll personnel.

To its credit, Southwest inadvertently discovered the contractors' non-compliance immediately
prior to the start of audit work and informed the audit team of the deficiency. Southwest
subsequently obtained the missing payroll records from the contractors and was able to provide
the documentation to the auditors prior to the end of the audit

Additionally, one of the two contractors noted above failed to pay its employees the prevailing
Davis-Bacon Act wages. Southwest also discovered this non-compliance and contracted with a
third party to review the benefits and compute the wage restitution. The restitution payroll was
completed in March 2011.

Cause

The errors were caused by an incomplete and outdated contractor listing and insufficient
oversight.

Effect

There is an increased risk that contractors were not meeting the Recovery Act intent of paying
prevailing wage rates as mandated by applicable provisions of the Davis-Bacon Act.


Recommendation

We recommend that Southwest:

3.1      Improve processes to ensure Weatherization Program personnel collecting certified
         payrolls are aware of all contractors being paid with Recovery Act funds.




                                                                                           9
                                                                        Attachment 1 (continued)
                         SECTION IV. Schedule of Findings (Cont.)


Management Comments

Southwest has implemented a policy requiring all contractors to report weekly on their work
schedule (showing jobs in progress), including the names of all crew members working on that
particular job. The tracking and reporting system will provide the agency with progress and
completions of work being performed by the weatherization crews. To ensure certified payrolls
are received and reviewed for compliance, Southwest will use this work schedule as a cross
check for the state job reporting, as well as tracking jobs reported as closed during that period.
The new accountability system will provide an accurate structure for the person preparing,
reviewing, and approving the State Davis-Bacon Act reports, reducing the risk for non-
compliance with the Davis-Bacon Act.


Auditor Response

We acknowledge Southwest's efforts toward implementation of corrective action.




                                                                                             10
                                                                      Attachment 1 (continued)
                         SECTION IV. Schedule of Findings (Cont.)


Finding 4. Questioned Costs — Advisory Comment

Condition

Based on our sample review, we found that Southwest was improperly reimbursed $1,633
associated with the weatherization services provided for 30 out of 69 units tested. Included in
this count were 24 units within a multi-family dwelling. More specifically, we noted the
following:

        For three dwelling units, Southwest miscalculated the invoices for weatherization work
         performed, which resulted in an overpayment from DHS in the amount of $105.
         Southwest corrected the error when we brought the matter to its attention.

        For 27 dwelling units (including the 24 multi-family units), Southwest erroneously
         charged $1,528 to Recovery Act funding for weatherization services performed under the
         Energy Optimization and DHS/Public Service Commission Programs. Southwest
         corrected the error when we brought the matter to its attention.

Federal regulations require sub-grantees to maintain accurate records to support items such as
costs incurred in weatherizing individual dwelling units, income of households receiving
weatherization assistance, and other records necessary for an effective audit and performance
evaluation.

Cause

The deficiency relating to the reimbursement of Recovery Act funds may be attributed to
Southwest making a clerical error and not fully reviewing invoices to ensure all weatherization
work was correctly documented before invoices were submitted to DHS for reimbursement.

Effect

We are questioning $1,633 that Southwest was reimbursed for weatherization services. The risk
of fraud, waste and abuse is elevated without effective supervisory review of supporting
documentation. Also, there is a diminished capacity to weatherize units fully.




                                                                                          11
                                                                         Attachment 1 (continued)


                         SECTION IV. Schedule of Findings (Cont.)


Recommendations

We recommend that Southwest:

4.1    Review its billing and payment processes to ensure that invoices are reviewed before
       being submitted to the State for reimbursement.

4.2    Work with DHS to address the costs questioned in this finding.


Management Comments

Southwest has implemented a supervisory review of its accounting and job closure process to
ensure all non-Federal qualifying charges are reflected on the cost center prior to Federal funds
being tallied. Southwest has made corrections to its accounting processes to develop a cost
allocation methodology to prevent future concerns. Prior to reporting the unit as completed to
the state database used in weatherization, the program manager conducts a comprehensive cost
allocation review for accuracy and allowability of all transactions.


Auditor Response

We acknowledge Southwest's efforts toward implementation of corrective action.




                                                                                              12
                                                                         Attachment 1 (continued)
                         SECTION IV. Schedule of Findings (Cont.)


Finding 5. Lead Safe Work Practices — Advisory Comment

Condition

We noted that 21 of the 69 units tested were built prior to 1978. Per Environmental Protection
Agency (EPA) regulations, repairs and renovations made to units built before this time must be
performed by certified contractors following specific work place practices to prevent lead
contamination. However, we found that for six of those 21 units, there was no evidence that the
units in question were exempt from Federal and State Lead Safe Weatherization regulations or
that lead safe practices were employed at the worksite. In comparison, we observed that detailed
invoices and photographs were part of the files for the remaining 15 units built prior to 1978.

In response, the local agency stated that all contractors must undergo lead safety training and that
the contractors had adhered to EPA standards for lead safe workplace practices, even though it
was not documented in the file. On these particular units, these practices were employed prior to
the Department of Energy implementing its own standards for lead safe workplace practices.

Lead safe workplace regulations state that lead safe work practices must be used during work
that involves surfaces with presumed or identified lead-based paint. Appropriate actions must be
taken to protect home occupants, workers and the worksite from lead-based paint hazards
associated with weatherization activities.

Cause

Southwest officials were not consistently supervising contractors to ensure that all measures
determined to be necessary during the pre-inspection phase, as they related to lead safety for
homes built prior to 1978, were adequately documented.

Effect

Southwest's failure to comply with Lead Safe Weatherization practices increases the risk of
injury to the dwelling unit occupants and the contractors' personnel from unsafe lead levels.




                                                                                              13
                                                                     Attachment 1 (continued)
                        SECTION IV. Schedule of Findings (Cont.)


Recommendation

We recommend that Southwest:

5.1    Ensure that weatherization procedures include documenting the lead safe practices that
       occur from pre-inspection to contractor work performed.

Management Comments

All Southwest contractors were instructed to implement safe work practices to minimize
exposure to hazards while allowing weatherization to occur. Southwest has drafted a Lead Safe
Weatherization (LSW) protocol on all weatherization dwellings. Prior to performing any
weatherization work, it is important the home be accurately assessed to determine if there is a
need for applying LSW protocols from the pre-auditor. Contractors have been instructed on the
importance of taking steps to protect occupants and workers from lead-based paint hazards while
weatherization work is being conducted.


Auditor Response

We acknowledge Southwest's effort toward implementation of corrective action.




                                                                                          14
                                 Attachment 1 (continued)
SECTION V. Management Response




                                                    15
                                                                          Attachment 1 (continued)
                     SECTION V. Management Response (Cont.)

1. Reporting Under Recovery Act – Significant Deficiency

   SMCAA has corrected jobs created/retained to include hours worked and paid with American
   Recovery and Reinvestment Act (ARRA) weatherization funds. SMCAA now reports all hours all
   hours worked under the ARRA program as reported on the timesheet.

2. Billing for Work Performed Prior to Completion – Significant Deficiency

   The final inspection that is in question per CSPM Item 602 Page 2 of 5 and 3of 5 (See
   Attachment B CSPM 602 and letters and final sign off) there is an Exception: a unit may be
   considered completed if the work cannot be completed because: inability to reach client, and
   client refusal to allow completion. There is sufficient documentation in the file that SMCAA made
   numerous attempts to reach and establish a time to complete the final inspection of all work.
   SMCAA finally accomplished the final inspection on 8/11/2011 (See attachment Findings sheet)

   Michigan DHS has structured a reporting system of accountability.
   SMCAA has implemented the responsibility of internal controls be placed on the program
   manager to properly deal with re inspections of additional work and all minor deficiencies.
   SMCAA has developed a policy to properly deal with re inspections. The crew foreman will review
   the quantity of materials, the quality of work and the completeness of each unit and sign off on
   the work order prior to the final post inspection being assigned to an auditor.
    SMCAA has an existing policy that requires signatures/dates of both contractors and
   inspector/auditors on all call back or additional work forms, this policy will be enforced. The
   auditor has the task of final approval for the measure on the Work Order (Y/N) prior to payment
   approval by the manager.

   All final inspection reports will be required for each job for the manager’s review prior to payment
   approval to contractors. Each file will have documentation of work corrected during the final
   inspection due to a failed final inspection or additional work required.
   SMCAA has developed and implemented a documented system of tracking additional work
   needed, re work and jobs needing corrections prior to closing, which will prevent further concerns.

   The tracking system will also evaluate contractor performance to ensure comprehensive and
   consistent work quality.

   SMCAA will implement a policy applicable to all units: No unit will be reported as completed until
   a signed final inspection report is provided to the manager signed off by all individuals prior to
   closure, or documentation in the file from the manager noting the exception.
   With the implementation of the statewide database, FacsPro, each Inspection/Work Order/Cost
   Center (IWC) is entered through the Weatherization Module of the Facs Pro system to assure
   sufficient, competent and relevant documentation prior to payment.

   To ensure a weatherized unit as completed this procedure will track labor and material costs by
   weatherized unit.

   Per CSPM item 401.2 Page 1 of 4 the Statement of Expenditures monthly report (SOE) is
   submitted to the Department of Human Services (DHS) to identify ACTUAL expenses incurred,
   by category of expenses. (There is no requirement that the project be completed and closed prior
   to expenses incurred: just that the job be completed prior to reporting completed units.)




                                                                                                 16
                                                                          Attachment 1 (continued)
                     SECTION V. Management Response (Cont.)

   DHS has issued a memo regarding the SOE monitoring process indicating a detailed ledger must
   accompany every Statement of Expenditure. Supporting documentation is being submitted with
   SMCAA’s SOE, all invoicing generated by weatherization at SMCAA are scanned to the state for
   further assurance prior to reimbursement approval.

3. Davis-Bacon Act – Advisory Comment

   SMCAA has implemented policy to require all contractors to report weekly on their work schedule
   (showing jobs in progress) with the names of all crew members working on that particular job.
   The tracking & reporting system will provide the agency with progress and completions of work
   being performed by the weatherization crews.

   With this work schedule SMCAA will use the form as a cross check for job reporting on the 347
   form, as well as jobs reported as closed during that period to ensure certified payrolls are
   received and reviewed for compliance. With the new accountability system there will be an
   accurate structure for the person preparing, reviewing, and approving the 347 Davis-Bacon
   reports reducing the risk for non compliance with the Davis-Bacon act. (See “Attachment C
   “contractor work schedule)

4. Questioned Costs – Advisory Comment

   SMCAA has implemented a supervisory review to its accounting and job closure process to
   include all non federal qualifying charges to be reflected on the cost center prior to Federal funds
   being tallied. SMCAA has made corrections to its accounting processes to develop a cost
   allocation methodology to prevent future concerns. An editing system of checks and balancing
   are conducted by the program manager, a comprehensive cost allocation review for accuracy and
   allow ability of all transactions and determination prior to reporting the unit as completed to the
   state database used in weatherization.

   The manager will review all cost expenditures for financial activities to ensure compliance with
   requirements to separately account for Recovery Act expenditures.

   Once the cost center has been reconciled with the invoices, only the weatherization manager can
   submit the job as completed and compliant to the State of Michigan as a completed weatherized
   dwelling in the FACS Pro database.

   With the implementation of the FACS Pro data base for job reporting, SMCAA will have more
   visibility for budget and expenditures per unit reported. SMCAA would like to assure that with the
   current updates in procedures, these issues will not occur in the future.

5. Lead Safe Work Practices – Advisory Comment

   All SMCAA contractors were instructed to implement safe work practices to minimize exposure to
   hazards while allowing weatherization to occur.

   SMCAA has drafted a LSW protocol on all weatherization dwellings.

   Prior to performing any weatherization work, it is important the home be accurately assessed to
   determine if there is a need for applying LSW protocols from the pre auditor.
   Contractors have been instructed on the importance of taking steps to protect occupants and
   workers from lead based paint hazards while weatherization work is being conducted.



                                                                                                 17
                                                                           Attachment 1 (continued)
                       SECTION V. Management Response (Cont.)

    • To ensure proper protocols are observed, Weatherization workers are required to provide photo
      documentation to be placed in the client files, verifying LSW set up protocols were properly
      followed.

    • All contractors are to be trained and certified in LSW

    • Firm Status must be obtained for each contractor performing weatherization through SMCAA

    • The individual performing renovation activities on behalf of the firm are to have received
      appropriate on the job training by a certified renovator from the time containment is established
      until post renovation clean up occurs. Crew members must be certified or trained and directed
      by a certified renovator. Each job where lead work is performed will require a Renovations
      Recordkeeping Checklist to accompany invoicing.

    • SMCAA has documentation to all contractors of the protocols to be used when disturbing
      surfaces that may have lead-based paint. (see “Attachment D” contractor memos)

6. Conflicting Guidance on Weatherizing Multi-Family Units –Advisory Comment
    SMCAA has taken corrective actions in response to the guidance on weatherizing multi- family
    units. SMCAA has addressed this issue by placing internal controls at the agency level to ensure
    limitations on Weatherization costs to no more than $6,500.00 per eligible unit or current state-
    wide average, whichever is lowest.

    SMCAA will ensure the Weatherization Assistance Program is aware of all federal mandates and
    ensure they are implemented. The program will be administered effectively for policies and
    procedures consistent with the federal requirements and in compliance with laws and regulations
    governing costs per unit and identifying correctly a project.




                                                                                                  18
                      Attachment 2
DEPARTMENT COMMENTS
                                                           IG Report No. OAS-RA-13-24

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
